<html>
<title> - SPACE TRAFFIC MANAGEMENT: HOW TO PREVENT A REAL LIFE ``GRAVITY''</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                       SPACE TRAFFIC MANAGEMENT:
                 HOW TO PREVENT A REAL LIFE ``GRAVITY''

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 9, 2014

                               __________

                           Serial No. 113-74

                               __________

 Printed for the use of the Committee on Science, Space, and Technology









[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://science.house.gov





                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

88-144PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001









              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              ROBIN KELLY, Illinois
KEVIN CRAMER, North Dakota           KATHERINE CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
BILL JOHNSON, Ohio
                                 ------                                

                         Subcommittee on Space

               HON. STEVEN M. PALAZZO, Mississippi, Chair
RALPH M. HALL, TEXAS                 DONNA F. EDWARDS, Maryland, RMM
DANA ROHRABACHER, California         SUZANNE BONAMICI, Oregon
FRANK D. LUCAS, Oklahoma             DAN MAFFEI, New York
MICHAEL T. MCCAUL, Texas             JOSEPH P. KENNEDY III, 
MO BROOKS, ALABAMA                       Massachusetts
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
JIM BRIDENSTINE, Oklahoma            FREDERICA WILSON, Florida
CHRIS COLLINS, New York              EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas
















                            C O N T E N T S

                              May 9, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Mo Brooks, Vice Chairman, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

Statement by Representative Donna F. Edwards, Ranking Minority 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    11
    Written Statement............................................    12

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    13
    Written Statement............................................    13

                               Witnesses:

Lt Gen. John ``Jay'' Raymond, Commander, 14th Air Force, Air 
  Force Space Command; and Commander, Joint Functional Component 
  Command for Space, U.S. Strategic Command
    Oral Statement...............................................    15
    Written Statement............................................    17

Mr. George Zamka, Deputy Associate Administrator, Office of 
  Commercial Space Transportation, Federal Aviation 
  Administration
    Oral Statement...............................................    31
    Written Statement............................................    33

Mr. Robert Nelson, Chief Engineer, International Bureau, Federal 
  Communications Commission
    Oral Statement...............................................    42
    Written Statement............................................    44

Mr. P.J. Blount, Adjunct Professor, Air and Space Law, University 
  of Mississippi School of Law
    Oral Statement...............................................    49
    Written Statement............................................    51

Mr. Brian Weeden, Technical Advisor, Secure World Foundation
    Oral Statement...............................................    65
    Written Statement............................................    67

Discussion.......................................................    90

             Appendix I: Answers to Post-Hearing Questions

Lt Gen. John ``Jay'' Raymond, Commander, 14th Air Force, Air 
  Force Space Command; and Commander, Joint Functional Component 
  Command for Space, U.S. Strategic Command......................   106

Mr. George Zamka, Deputy Associate Administrator, Office of 
  Commercial Space Transportation, Federal Aviation 
  Administration.................................................   113

Mr. Robert Nelson, Chief Engineer, International Bureau, Federal 
  Communications Commission......................................   120

Mr. P.J. Blount, Adjunct Professor, Air and Space Law, University 
  of Mississippi School of Law...................................   126

Mr. Brian Weeden, Technical Advisor, Secure World Foundation.....   138

 
    SPACE TRAFFIC MANAGEMENT: HOW TO PREVENT A REAL LIFE ``GRAVITY''

                              ----------                              


                          FRIDAY, MAY 9, 2014

                  House of Representatives,
                              Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Mo Brooks 
[Chairman of the Subcommittee] presiding.




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Brooks. The Subcommittee on Space will come to 
order. Good morning. Welcome to today's hearing titled,``Space 
Traffic Management: How To Prevent A Real Life 'Gravity'''. In 
front of you are packets containing the written testimony, 
biography, and truth in testimony disclosure for today's 
witnesses. Before I begin my opening statement, let me say that 
the topic we are discussing is one that I know is of great 
interest to Chairman Steve Palazzo, and he would be here 
leading the discussion today if he had not been pulled away by 
the death of a close friend this week. I also understand he 
will be including a statement for the record. I would like to 
offer my condolences to him and his family during this time. I 
recognize myself for five minutes for an opening statement.
    The focus of this hearing is how to prevent a real life 
``Gravity''. As was imaginatively portrayed by Hollywood last 
year, the threat of debris in key orbits around the Earth is a 
very real and serious issue. While the movie elevated orbital 
debris to the forefront of the public's attention, this 
Committee is no stranger to the topic. Today we will continue 
assessing the key questions involved in space traffic 
management, and what Congress may do to ensure the safety and 
security of the space environment.
    There are two important facets of this discussion. The 
first is an assessment of what we are doing right now to track 
and mitigate orbital debris. The second is what more needs to 
be done without burdening the space industry with unnecessary 
bureaucratic hurdles to success. At present, the Joint 
Functional Component Command for Space, or JFCC Space, is 
tracking approximately 23,000 objects in orbit around the 
Earth, including 4,000 payloads, of which 1,200 are active. The 
current systems available for tracking cannot detect objects 
smaller than four inches in size. This means we can't track a 
fleck of paint traveling at 17,500 miles an hour, which in and 
of itself, although small, can cause serious damage.
    The Chinese anti-satellite test in 2007 demonstrated just 
how volatile the space environment can be. This test resulted 
in the largest creation of debris in history. So far, almost 
3,400 individual objects associated with this event have been 
catalogued, and the list is still growing. Additionally, in 
2000, the collision of a decommissioned Russian communication 
satellite, dubbed Kosmos-2251, and an active U.S. 
Communications satellite called Iridium-33 created a debris 
field that resulted in over 2,000 pieces of debris. Combined, 
these two events account for almost a quarter of all the 
objects that JFCC is tracking.
    While tracking existing debris is obviously key to this 
discussion, we must also focus on preventing the proliferation 
of these objects in the first place. There are two key agencies 
involved in the mitigation of debris, the Federal Aviation 
Administration, and the Federal Communications Commission. Both 
of these agencies have developed regulations specific to the 
creation of orbital debris, and I am eager to hear from them 
today.
    The FAA is responsible for the mitigation of debris as it 
pertains to launch and reentry of transportation vehicles. The 
National Space Transportation Policy released in November of 
2013 directed the Department of Transportation to execute 
exclusive authority over these activities. While this was not a 
change in the status quo, Dr. George Nield, Associate 
Administrator for Commercial Space Transportation at the FAA, 
testified before this Subcommittee that his agency was ready to 
start a larger discussion on an expansion of their authority to 
regulate on orbit activities. It is unclear what specific 
authority the FAA is asking for, and how it would anticipate 
working with other agencies to implement this authority. 
Regardless of the Administration's plans, Congress will need to 
carefully weigh the costs and benefits of increased authority 
for the FAA against the possible overregulation of a still very 
young industry.
    In 2005, the FCC asserted jurisdiction to regulate orbital 
debris from commercial satellites which require their licenses 
for the use of spectrum. The Commission based this assertion 
largely on the broad mandate in the Communications Act of 1934 
to encourage ``the larger and more effective use of radio in 
the public interest.'' Although Congress has not provided 
authority for this type of regulation explicitly, there seems 
to be some ambiguity in the nature of their mandate to utilize 
the spectrum effectively and efficiently.
    The efforts of Federal agencies should be viewed within the 
context of separate international and private sector efforts. 
The United States has the most advanced space situational 
awareness system in the world, but tracking and cataloging the 
space environment more effectively may come from key 
partnerships. We cannot afford to ignore these important 
partners.
    As commercial human spaceflight increases in the coming 
decades, we must be sure that the nation can protect the 
health, welfare, and safety of our government astronauts and 
private spaceflight participants. It is also imperative that we 
secure key orbits to protect assets that are critical to our 
economy. Similarly, we cannot allow national security assets 
that are used to keep our country safe to be threatened by the 
proliferation of debris.
    The debris events caused by the Kosmos and Iridium 
collision in 2009 and China's ASAT test in 2007 demonstrated 
that the space environment is vulnerable and ever changing. We 
must be vigilant to ensure our national interests are 
protected.
    I appreciate the appearance of our witnesses today, and I 
look forward to hearing from them.
    [The prepared statement of Mr. Brooks follows:]

  Prepared Statement of Subcommittee on Space Vice Chairman Mo Brooks

    The focus of this hearing is how to prevent a real life `Gravity.' 
As was imaginatively portrayed by Hollywood last year, the threat of 
debris in key orbits around the Earth is very real and a serious issue. 
While the movie elevated orbital debris to the forefront of the 
public's attention, this committee is no stranger to the topic. Today 
we will continue assessing the key questions involved in space traffic 
management and what Congress may do to ensure the safety and security 
of the space environment.
    There are two important facets of this discussion. The first is an 
assessment of what we are doing right now to track and mitigate orbital 
debris. The second is what more needs to be done without burdening the 
space industry with unnecessary bureaucratic hurdles to success.
    At present, the Joint Functional Component Command for Space, or 
JFCC SPACE, is tracking approximately 23,000 objects in orbit around 
the Earth, including 4,000 payloads, of which 1,200 are active. The 
current systems available for tracking cannot detect object smaller 
than four inches in size. This means we can't even track a paint fleck 
travelling at 17,500 miles an hour, which can cause serious damage.
    The Chinese Anti-Satellite test in 2007 demonstrated just how 
volatile the space environment can be. This test resulted in the 
largest creation of debris in history. So far almost 3,400 individual 
objects associated with this event have been cataloged, and the list is 
still growing. Additionally, in 2000, the collision of a decommissioned 
Russian Communications Satellite dubbed Kosmos-2251 and an active U.S. 
communications satellite called Iridium-33 created a debris field that 
resulted in over 2,000 pieces of debris. Combined, these two events 
account for almost a quarter of all the objects JFCC is tracking.
    While tracking existing debris is obviously key to this discussion, 
we must also focus on preventing the proliferation of these objects in 
the first place. There are two key agencies involved in the mitigation 
of debris, the Federal Aviation Administration and the Federal 
Communications Commission. Both of these agencies have developed 
regulations specific to the creation of orbital debris and I am eager 
to hear from them today.
    The FAA is responsible for the mitigation of debris as it pertains 
to launch and reentry of transportation vehicles. The National Space 
Transportation Policy released in November of 2013 directed the 
Department of Transportation to execute exclusive authority over these 
activities. While this was not a change in the status quo, Dr. George 
Nield, Associate Administrator for Commercial Space Transportation at 
the FAA testified before this Subcommittee that his agency was ready to 
start a larger discussion on an expansion of their authority to 
regulate on orbit activities. It is unclear what specific authority the 
FAA is asking for, and how it would anticipate working with other 
agencies to implement this authority. Regardless of the 
Administration's plans, Congress will need to carefully weigh the costs 
and benefits of increased authority for the FAA against the possible 
overregulation of a still very young industry.
    In 2005, the FCC asserted jurisdiction to regulate orbital debris 
from commercial satellites which require their licenses for the use of 
spectrum. The Commission based this assertion largely on the broad 
mandate in the Communications Act of 1934 to encourage ``the larger and 
more effective use of radio in the public interest.'' Although Congress 
has not provided authority for this type of regulation explicitly, 
there seems to be some ambiguity in the nature of their mandate to 
utilize the spectrum effective and efficiently.
    The efforts of federal agencies should be viewed within the context 
of separate international and private sector efforts. The United States 
has the most advanced space situational awareness system in the world, 
but tracking and cataloging the space environment more effectively may 
come from key partnerships. We cannot afford to ignore these important 
partners.
    As commercial human spaceflight increases in the coming decades, we 
must be sure that the nation can protect the health, welfare, and 
safety of our government astronauts and private spaceflight 
participants. It is also imperative that we secure key orbits to 
protect assets that are critical to our economy. Similarly, we cannot 
allow national security assets that are used to keep our country safe 
to be threatened by the proliferation of debris.
    The debris events caused by the Kosmos and Iridium collision in 
2009 and China's ASAT test in 2007 demonstrated that the space 
environment is vulnerable and ever changing. We must be vigilant to 
ensure our national interests are protected.
    I appreciate the appearance of our witnesses today and I look 
forward to hearing from them.###

    Chairman Brooks. I now recognize the Ranking Member from 
Maryland, Ms. Edwards.
    Ms. Edwards. Thank you very much, Mr. Chairman, and welcome 
to everyone to today's hearing.
    Mr. Chairman, while the accuracy of the events depicted in 
the fictional movie ``Gravity'' can be questioned, there is no 
doubt that it has made the public at least a little bit more 
aware of the danger of orbital debris, and that is probably a 
good thing. But in the real world, the nature of the danger was 
brought into stark focus by the aftermath of the 2007 anti-
satellite test conducted by China. This incident is said to 
have created an estimated debris population of 150,000 objects 
larger than one centimeter in size. The resulting increase in 
space debris has made the space environment more hazardous to 
military, civil, and commercial satellites and spacecraft for 
years to come.
    So what are we doing to make space travel safe from orbital 
debris? Well, today a number of government agencies have a role 
in orbital debris mitigation. Three of those agencies are 
represented on the panel today. The DoD Strategic Command is 
responsible for tracking orbital debris. The FCC has 
jurisdiction for mitigating orbital debris from satellites, and 
FAA's Office of Commercial Space Transportation regulates 
orbital debris from commercially licensed launch and re-entry 
vehicles. However, what isn't quite clear is which agencies 
have, or could have, legitimate roles in space traffic 
management. That is, the authority to tell a space operator to 
move a spacecraft should the potential for collision from 
debris or another spacecraft require it.
    Other questions also come into mind. Should space traffic 
management be carried out by one or more existing agencies, or 
perhaps by a new organization? What needs to happen for the 
information on space debris and potential collisions to get to 
the people who need it, and when they need it? Is the current 
system for information transfer working, or does it need 
improvement? Because the causes and consequences of orbital 
debris are international in scope, does successful space 
traffic management require an international approach? And, 
lastly, what liability should the agency or agencies in charge 
of space traffic management assume if its direction to a 
satellite operator to move a spacecraft results in a collision?
    These are just a few of the questions that this 
Subcommittee will need to address if we aim to lay the 
groundwork for ensuring the safety of future space flight from 
orbital debris and other spacecraft. Mr. Chairman, these are 
complex issues, and so I hope today's hearing will start to 
shed light not only on the important issue of orbital debris, 
but also on the approaches Congress might consider for 
potential space traffic management and regulatory regime.
    And with that, I yield back the balance of my time.
    [The prepared statement of Ms. Edwards follows:]

              Prepared Statement of Subcommittee on Space
                    Ranking Member Donna F. Edwards

    Good afternoon and welcome to today's hearing.Mr. Chairman, while 
the accuracy of all of the events depicted in the movie ``Gravity'' can 
be questioned, there is no doubt it has made the public more aware of 
the danger of orbital debris.
    And that's a good thing.
    The real world nature of the danger was brought into stark focus by 
the aftermath of the 2007 anti-satellite test conducted by China. This 
incident is said to have created an estimated debris population of 
150,000 objects larger than 1 centimeter in size. The resulting 
increase in spacedebris has made the space environment more hazardous 
to military, civil, and commercial satellites and spacecraft for years 
to come.
    So what are we doing to make space travel safe from orbital debris?
    Today, a number of government agencies have a role in orbital 
debris mitigation. Three of those agencies are represented on the panel 
today:

    <bullet>  DOD's Strategic Command is responsible for tracking 
orbital debris.
    <bullet>  FCC has jurisdiction for mitigating orbital debris from 
satellites.
    <bullet>  And FAA's Office of Commercial Space Transportation 
regulates orbital debris from commercially licensed launch and reentry 
vehicles.
    However, what isn't quite clear is which agencies have or could 
have legitimate roles in space traffic management--that is, the 
authority to tell a space operator to move a spacecraft should the 
potential for collision from debris or another spacecraft require it.

    And other questions come to mind:

    <bullet>  Should space traffic management be carried out by one or 
more existing agencies or perhaps by a new organization?
    <bullet>  What needs to happen for the information on space debris 
and potential collisions to get to the people who need it and when they 
need it?
    <bullet>  Is the current system for information transfer working, 
or does it need improvement?
    <bullet>  Because the causes and consequences of orbital debris are 
international in scope, does successful space traffic management 
require an international approach?
    <bullet>  And what liability should the agency or agencies in 
charge of space traffic management assume if its direction to a 
satellite operator to move a spacecraft results in a collision?

    These are just a few of the questions this Subcommittee will need 
to address if we aim to lay the groundwork for ensuring the safety of 
future spaceflight from orbital debris and other spacecraft.

    Mr. Chairman, these are complex issues.

    I hope that our hearing today will start to shed light not only on 
the important issue of orbital debris but also on the approaches 
Congress might consider for a potential space traffic management and 
regulatory regime.

    Chairman Brooks. Thank you, Ms. Edwards.
    I now recognize the Ranking Member of the full Committee, 
from Texas, Ms. Johnson, for a statement.
    Ms. Johnson. Thank you very much, and good morning. I want 
to welcome our witnesses to this morning's hearing, and I look 
forward to your testimony. I will be brief in my remarks, so 
that we will have enough time to hear from our experts.
    Orbital debris, or space junk, as it is sometimes called, 
is not science fiction. It is a reality, and something that has 
implications for the way we operate both our crewed spacecraft 
and our commercial and government satellites. It is a growing 
problem. Dealing with the increase in orbital debris will not 
be easy. As our witnesses will testify, the issues associated 
with this mitigation, and its potential removal from orbit, are 
complex.
    A number of agencies are involved, not all of whom are 
represented at today's hearing. I am pleased that the 
bipartisan NASA reauthorization bill that we recently marked up 
now contains several provisions related to orbital debris. I 
believe that their inclusion is a useful start to addressing 
this complex set of issues. That said, I would caution against 
legislating further in this area until we have a better 
understanding of the issues involved. This morning's hearing 
will provide a good starting point for our Members to learn 
about both the challenge presented by orbital debris, as well 
as some of the potential approaches to dealing with that 
challenge. I am pleased that this Subcommittee is holding this 
hearing.
    In closing, I again want to welcome our witnesses, and I 
yield back the balance of my time.
    [The prepared statement of Ms. Johnson follows:]

                 Prepared Statement of Full Committeee
                  Ranking Member Eddie Bernice Johnson

    Thank you very much. I want to welcome our witnesses to this 
morning's hearings, and I look forward to your testimony. I will be 
brief in my remarks so that we have enough time to hear from these 
experts before we have to go vote.
    Orbital debris, or ``space junk'' as it is sometimes called--is not 
science fiction-it is a reality, and something that has implications 
for the way we operate both our crewed spacecraft and our commercial 
and government satellites. It is a growing problem.
    Dealing with the increase in orbital debris will not be easy. As 
our witnesses will testify, the issues associated with its mitigation 
and its potential removal from orbit are complex. A number of agencies 
are involved, not all of whom are represented at today's hearing.
    I am pleased that the bipartisan NASA Authorization bill that we 
recently marked up now contains several provisions related to orbital 
debris. I believe that their inclusion is a useful start to addressing 
this complex set of issues.
    That said, I would caution against legislating further in this area 
until we have a better understanding of the issues involved. This 
morning's hearing will provide a good starting point for Members to 
learn about both the challenge presented by orbital debris as well as 
some of the potential approaches to dealing with that challenge. I am 
pleased that the Subcommittee is holding it.
    In closing, I again want to welcome our witnesses, and I yield back 
the balance of my time.

    Chairman Brooks. Thank you, Ms. Johnson. If there are 
Members who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    At this time, I would like to introduce our witnesses. Our 
first witness is Lieutenant General John ``Jay'' Raymond, 
Commander, 14th Air Force, Air Force Space Command, and 
Commander, Joint Functional Component Command for Space, U.S. 
Strategic Command. As the U.S. Air Force's operational space 
component to U.S. STRATCOM, General Raymond leads more than 
20,500 personnel, responsible for providing missile warning, 
space superiority, space situational awareness, satellite 
operation, space launch, and range operations. As Commander, 
JFCC Space, he directs all assigned and attached U.S. STRATCOM 
space forces, providing tailored, responsive, timely local and 
global space effects in support of national U.S. STRATCOM, and 
combatant commander objectives.
    Our second witness today is Mr. George Zamka, Deputy 
Associate Administrator for Commercial Space Transportation at 
the Federal Aviation Administration. Mr. Zamka came to the FAA 
directly from NASA, where he served as an astronaut, and most 
recently as a research and instructor pilot at the Johnson 
Space Center. He is a retired Colonel in the Marine Corps, and, 
as a pilot, has more than 5,000 flight hours in fighter, 
attack, test, research, and training aircraft. He was selected 
as an astronaut by NASA in June 1998. He has spent more than 
692 hours in space.
    Our third witness is Mr. Robert Nelson, Chief Engineer, 
International Bureau, Federal Communications Commission. He is 
responsible for leading the Bureau's work on technical issues, 
including satellite communications and cross-border technical 
issues. Prior to serving as the Bureau's Chief Engineer, he was 
chief of the Bureau's satellite division, and chief of the 
satellite division, engineering branch. Before joining the 
Commission, Mr. Nelson had various engineering positions in the 
private sector.
    Our fourth witness is Mr. P.J. Blount, Adjunct Professor of 
Air and Space Law at the University of Mississippi School of 
Law. He is also an adjunct professor in the Department of 
Political Science and Law at Montclair State University. 
Previously he served as research counsel for the National 
Center for Remote Sensing, Air and Space Law, at the University 
of Mississippi School of Law. He teaches space security law, 
international telecommunications law, human rights law, and 
cyber law. He serves as the assistant executive secretary of 
the International Institute of Space Law.
    Our final witness is Mr. Brian Weeden, Technical Advisor at 
the Secure World Foundation. As technical advisor, Mr. Weeden 
conducts research on space debris, global space situational 
awareness, space traffic management, protection of space 
assets, and space governance. Prior to joining SWF, Mr. Weeden 
served on active duty as an officer in the United States Air 
Force, working in space and intercontinental ballistic missile 
operations. As part of U.S. Strategic Command's Joint Space 
Operation Center, Mr. Weeden directed the orbital and analyst 
training program and developed tactics, techniques, and 
procedures for improving space situational awareness.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which the Members of the Committee 
will have five minutes each to ask questions. I now recognize 
General Raymond for five minutes to present his testimony.

                TESTIMONY OF LIEUTENANT GENERAL

                     JOHN ``JAY'' RAYMOND,

      COMMANDER, 14TH AIR FORCE, AIR FORCE SPACE COMMAND;

           AND COMMANDER, JOINT FUNCTIONAL COMPONENT

           COMMAND FOR SPACE, U.S. STRATEGIC COMMAND

    General Raymond. Chairman Brooks, Representative Edwards, 
Members of the Subcommittee, it is an honor to appear before 
you as the United States Strategic Commands Commander of the 
Joint Functional Component Command for Space. I greatly 
appreciate the opportunity to address the Committee, and I look 
forward to working with you to advance our Nation's space 
capabilities. Before going further, though, I would ask--if I 
could be so bold to ask you for a favor, and just please pass 
along my condolences to Chairman Palazzo.
    It is my highest honor to represent the 3,300 soldiers, 
sailors, airmen, and marines and civilians that make up the 
Joint Functional Component Command for Space. These 
professionals, along with our exchange officers from Australia, 
Canada, and the United Kingdom ensure our Nation, our allies, 
and our joint war fighters have continued access to the space 
capabilities that enable the American way of life.
    JFCC Space is the world's premier provider of space 
situational awareness data and products. Over the past few 
years, we have bolstered our commercial and international 
partnerships. We have implemented two-way sharing agreements, 
and we have worked collaboratively to refine our sharing 
processes. Additionally, we are on track to deliver a new 
command and control system called the Joint Space Operations 
Center Mission System, or JMS for short, and additional space 
situational awareness sensors, the combination of which will 
give us increased capability, and improve space situational 
awareness for the United States and our partners.
    Although maintaining awareness of the space domain is no 
small task, I am confident that the men and women of JFCC Space 
are prepared to meet the challenges with a spirit of dedicated 
innovation and devotion to duty, providing our Nation, our 
allies, and our joint war fighters assured access to the 
world's premiere space capabilities. I thank the Committee for 
your continued support as we strive to preserve the space 
domain, and enhance the space capabilities which are so vital 
to our nation.
    [The prepared statement of Lieutenant General Raymond 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Brooks. Thank you for your timely testimony.
    The Chair next recognizes Mr. Zamka for his testimony.

                 TESTIMONY OF MR. GEORGE ZAMKA,

                DEPUTY ASSOCIATE ADMINISTRATOR,

           OFFICE OF COMMERCIAL SPACE TRANSPORTATION,

                FEDERAL AVIATION ADMINISTRATION

    Mr. Zamka. Chairman Books, Ranking Members Edwards, and 
distinguished Members of the Subcommittee, thank you for 
inviting me. This is my first opportunity to speak before the 
Subcommittee, and I am particularly fortunate to be able to 
speak about the FAA's efforts regarding orbital debris 
mitigation. Aside from launch and reentry, orbital debris poses 
the highest risk to human spaceflight. During my two space 
missions, we flew upside down and backwards to protect our 
shuttle windows from orbital debris, and even doing that, we 
had cracks on our windows from various small debris strikes.
    With regard to orbital debris mitigation, it is helpful to 
review the operations to which the FAA's authority applies, and 
where it does not. The FAA is the sole Federal Government 
agency with authority to license commercial space 
transportation activities. That authority is limited by the 
Commercial Space Launch Act to the launch and reentry of a 
vehicle. Under that authority, at the end of launch, the FAA 
requires the operator of a launch vehicle to safe their vehicle 
and ensure there is no post-separation contact with their 
deploying payload, in order to prevent orbital debris 
generation. The FAA also imposes launch window limitations 
based on a launch collision avoidance analysis with habitable 
spacecraft, such as the International Space Station.
    The FAA does not currently have authority to regulate on 
orbit. The only agencies with any regulatory authority in 
between launch and reentry events are the FCC, for 
communications satellites, and NOAA, for remote sensing 
satellites. The FAA interfaces with the FCC and NOAA regularly 
through payload reviews, and our primary partners in developing 
effective orbital debris rules are the Department of Defense 
and NASA.
    The NASA Orbital Debris Program Office has been a strong 
partner in the development of FAA rules, and is an invaluable 
resource. The DoD's Joint Space Operation Center, or JSPOC, 
provides tracking information and debris detection data that we 
use to evaluate the effectiveness of launch debris mitigation 
efforts. Only the DoD has legislative authority and capability 
to share space situational awareness information, including 
notifications of impending collisions, and near collisions, to 
cooperating space operators, but it lacks any enforcement 
authority.
    An issue of oversight and enforcement authority emerges 
with the increasing number of commercial space transportation 
vehicles, which will operate differently from communications or 
Earth observing satellites. Rather than travel to and remain in 
one stable orbit, commercial transportation vehicles will move 
in between orbits and rendezvous with, attach to, and deliver 
cargo and people to other orbiting space vehicles. These 
orbital operations could cause collisions that would create 
orbital debris.
    As Congress explores the issue of orbital debris and 
transportation hazards, the FAA urges the Subcommittee to 
consider at least two possible options, separately or in 
combination. First, it should consider whether a regulatory 
agency should authorize transportation on orbit by license. In 
that scenario, an agency with the proper expertise would, as 
part of a license evaluation, review the operator's plans and 
debris mitigation measures in advance of operations.
    In a second scenario, that may require additional 
discussion, we would consider the benefits of an agency with 
enforcement authority providing notices of impending hazards 
and collisions. That agency would serve as a referee, advising 
of impending high risk events, and facilitating a safer orbital 
environment for all commercial and governmental operators.
    This Subcommittee is familiar with the orbital debris 
environment that consists of spent rocket bodies and debris 
traveling in different directions at speeds 5 to 10 times that 
of a bullet, and carrying tremendous energy into any collision. 
Because of minimal atmospheric drag in Earth orbit, objects in 
orbit tend to stay in orbit, at least for a very long time. For 
example, TIROS-2, which was launched over a half century ago, 
was recently added to the 60-day reentry prediction list.
    Collisions between orbiting objects can cause a lot of 
debris. We talked about the Iridium/Kosmos collision that 
created over 2,000 of the 23,000 tracked objects on orbit. 
Orbital debris affects human spaceflight as well. The ISS has 
executed 18 debris avoidance maneuvers, and ISS crew Members 
have been required to shelter in their Soyuz life boats at 
times when hazardous debris was detected with too little 
warning to plan and carry out a debris avoidance maneuver.
    As space transportation capabilities and operations 
continue to advance, and as the risk posed by orbital debris 
increases, plans for mitigation become ever more critical. It 
is time to explore the orbital safety of commercial space 
transportation under the Commercial Space Launch Act.
    Mr. Chairman, this concludes my prepared remarks, and I 
will be pleased to answer any questions you may have.
    [The prepared statement of Mr. Zamka follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Brooks. Thank you, Mr. Zamka.
    The Chair now recognizes Mr. Nelson for five minutes.

        TESTIMONY OF MR. ROBERT NELSON, CHIEF ENGINEER,

                     INTERNATIONAL BUREAU,

               FEDERAL COMMUNICATIONS COMMISSION

    Mr. Nelson. Chairman Brooks, Ranking Member Edwards, and 
distinguished Members of the Subcommittee, thank you for 
inviting me to speak with you today about the FCC's role in 
orbital debris mitigation, and how we fit into the overall 
efforts of the United States Government with respect to this 
issue.
    In 1973, the FCC licensed the first purely private U.S. 
communication satellites, and the first such satellite began 
operations in the geosynchronous orbit in 1974, slightly more 
than 40 years ago. Under the Communications Act, the FCC is 
charged with licensing radio communications. The Act recognized 
that radio transmissions do not stop at national boundaries, 
and as a result, the Act was drafted with the understanding 
that regulation needed to extend outside the territorial 
boundaries of the United States. At the same time, FCC 
licensing does not extend to U.S. Federal Government 
transmitters, which are authorized by NTIA in the Commerce 
Department.
    FCC licensing and regulation are governed by a core 
principle of the Communications Act, that issuing a license 
requires a finding that the public interest must be served. In 
that vein, the FCC, in 2004, recognizing work done by NASA and 
other agencies, adopted debris mitigation regulations for the 
satellite services it licenses. The FCC concluded that debris 
mitigation rules would help preserve the United States' 
continued affordable access to space, the continued provision 
of reliable U.S. space based services, as well as the 
contingent safety of persons and property in space, and on the 
surface of the Earth.
    FCC satellite licenses have always included, as one of the 
terms, of the assignment of an orbital location. Deviation from 
that license term is basis for an enforcement action. The FCC 
licensing process includes an opportunity for public comment, 
and this has, on occasion, resulted in objections to a proposed 
license modification, based on collision risk. In 2004 debris 
mitigation rules added a requirement to describe debris 
mitigation plans. Specifically, the FCC rules require license 
applicants to describe steps taken to avoid accidental 
explosions, to identify and avoid collision risks, and to 
safely dispose of a satellite at the end of its mission. The 
FCC rules also include a requirement to dispose of 
geostationary satellites, consistent with an International 
Telecommunications Union recommendation adopted in 2003, and a 
requirement that all satellites be left in a safe 
configuration. The satellite applicant's plans are evaluated as 
a part of the licensing process.
    The FCC is one of three agencies that license U.S. 
commercial activities in space, the other two being the FAA for 
launch and reentry activities, and NOAA for remote sensing. 
Consistent with long established radio frequency management 
processes, the FCC is the licensing authority for radio 
frequency use by private launch vehicles and remote sensing 
satellites. However, the FCC has recognized the FAA's statutory 
role under the Commercial Space Launch Act, and it recently 
reiterated that it would not apply its debris mitigation rules 
to commercial space transportation activities that are subject 
to FAA regulation. The FCC also recognized NOAA's statutory 
role concerning post-mission disposal of the remote sensing 
satellites it licenses.
    Although the FCC licensing process is independent from NOAA 
and FAA processes, the FCC consults with these agencies as 
needed. Consultation is often related to status of particular 
cases and the progress of licensing activities. Further, FCC's 
regulations and licensing make use of scientific and technical 
work done by NASA. The FCC does not operate any orbital debris 
tracking equipment, such as radar and telescopes. And, like 
much of commercial satellite industry, the FCC's main sources 
of satellite tracking data are DoD's JSPOC, as well as the 
satellite operators themselves, derived from their radio links 
with their satellites.
    The efforts to improve space situational awareness of the 
JSPOC and commercial operators, through such mechanisms as the 
Space Data Association, are an important element to an overall 
debris mitigation strategy. To be clear, data sharing between 
JSPOC and commercial operators is on a spacecraft operator to 
spacecraft operator basis. The FCC is not an intermediary in 
this process.
    In conclusion, I thank the Committee for this opportunity 
to describe the FCC's rules concerning orbital debris 
mitigation, the sources of the FCC's authority on these rules, 
and the FCC's interaction with other Federal Government 
agencies concerning this important topic. Thank you very much.
    [The prepared statement of Mr. Nelson follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Brooks. Thank you, Mr. Nelson.
    The Chair now recognizes Mr. Blount for five minutes.

        TESTIMONY OF MR. P.J. BLOUNT, ADJUNCT PROFESSOR,

                       AIR AND SPACE LAW,

            UNIVERSITY OF MISSISSIPPI SCHOOL OF LAW

    Mr. Blount. Chairman Brooks, Ranking Member Edwards, 
distinguished Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss this 
important topic. Space traffic management is a complex issue, 
and I will try to briefly summarize my written statement.
    Space traffic management as a concept contains two 
different elements. There--these are the technical capabilities 
needed to control space traffic, and the legal regime which 
governs appropriate behavior. I will primarily be addressing 
the legal aspects of space traffic management, and will do so 
in the context of the international obligations of the United 
States.
    International space law encompasses a variety of principles 
that set the bounds of appropriate state conduct in outer 
space. These principles are broad in scope, and largely 
undefined. The lack of definition means that the United States 
is in a unique position to influence the content of these norms 
to help create a safe and secure space environment. 
International space law grants all states the right of free 
access to outer space. Additionally, states shall, under 
Article 9 of the Outer Space Treaty, engage in space activities 
with due regard to the corresponding interests of other states, 
and states are given a right and an obligation to seek 
consultations when there may be harmful interference between 
space activities. This treaty provision emphasizes 
international cooperation and coordination in space activities. 
Article 9 also creates an obligation to not harmfully 
contaminate the space environment.
    Under Article 6 of the same treaty, states are 
internationally responsible for the activities of non-
governmental actors, and are required to authorize and 
continually supervise these activities. This is an 
extraordinary provision in international law which generally 
does not hold states responsible for the activities of their 
non-governmental actors. This provision gives states an 
affirmative obligation to oversee non-governmental actors to 
ensure that they behave responsibly in space.
    As I have already mentioned, these provisions are 
substantially undefined. They require states to engage in space 
activities in such a manner as to preserve space for use and 
exploration by all for peaceful purposes. However, these 
provisions leave the contours of what constitutes responsible 
behavior up to states, who have traditionally cooperated and 
coordinated on an ad hoc basis. Notably, these provisions have 
failed to set meaningful limits on the creation of orbital 
debris.
    The United States has traditionally been a leader in the 
development of international space law, and space traffic 
management should be no different. When provisions of treaties 
are unclear, state practice in regards to those provisions 
often help to define the content of the--the content and 
meaning of those provisions. For example, following the United 
States lead, Article 6--the Article 6 obligation to authorize 
and supervise has been implemented by states as licensing 
regimes.
    The United States is in a unique position in the 
development of domestic space traffic management regime to 
influence the meaning of international norms and the 
international frameworks developed to coordinate space traffic 
management among states. To this end, in my written testimony, 
I have identified three key principles that should be taken 
into account when developing a domestic space traffic 
management system.
    First, mechanisms providing for data transparency and 
access are critical to ensuring proper management of space 
traffic. It is essential to controlling domestic operations, as 
well as coordinating international cooperation.
    Second, a space traffic management system, whether 
organized in one agency or many, needs to ensure that the--that 
a government agency has unambiguous jurisdiction during all 
phases of space operations. This provides regulatory 
predictability, which can help foster the commercial space 
industry, and it also ensures that the United States complies 
with its obligation to continually supervise non-governmental 
actors.
    Finally, whatever government entity or entities is vested 
with the jurisdiction to manage space traffic, that agency 
needs also to vested with technical competence to ensure that 
it can properly oversee these operations. Jurisdiction to 
management operations will be meaningless without the technical 
capabilities to do so.
    The maintenance of a safe and secure space environment is 
in the national interest of the United States. Civil, 
commercial, and military operations are all dependent on a 
space environment free of interference from other actors. To 
this end, the United States should be a leader in developing a 
space traffic management system that can foster such an 
environment, both domestically and internationally.
    Mr. Chairman, this concludes my statement. Thank you again 
for the opportunity. I am happy to answer any questions you may 
have.
    [The prepared statement of Mr. Blount follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Brooks. Thank you, Mr. Blount.
    The Chair now recognizes Mr. Weeden for five minutes.

                 TESTIMONY OF MR. BRIAN WEEDEN,

                       TECHNICAL ADVISOR,

                    SECURE WORLD FOUNDATION

    Mr. Weeden. Thank you, Chairman Brooks, Ranking Member 
Edwards, distinguished Members of the Subcommittee. Secure 
World Foundation is dedicated to the long term sustainability 
of the space environment so that all of humanity can continue 
to use space for benefits here on Earth. The growth in space 
debris, and increasing congestion of critical regions of Earth 
orbit, present significant challenges to space sustainability, 
and addressing those challenges is a key part of our work.
    Regarding the threat that space debris poses, there are 
three categories of complementary activities that can help 
address that challenge. The first is space debris mitigation, 
limiting the creation of new debris from human activities in 
space. The second is active debris removal, also known as 
remediation, which aims to remove some of the existing pieces 
of debris to help prevent future growth in the debris 
population, or to reduce the collision risk to satellites in 
highly congested regions. The third activity is space traffic 
management, which I defined in my testimony as minimizing the 
negative impact of space debris on space activities. All three 
of these activities are enabled by a fourth, space situation 
awareness, broadly defined as characterized in a space 
environment, and its impact on activities in space.
    The U.S. government's strong efforts on space debris 
mitigation over the last decade and a half are a good start, 
but need to be part of a more comprehensive approach. My 
written testimony outlines three major steps that can be taken 
in this direction. The first is to find ways to harmonize the 
implementation of debris mitigation guidelines across the 
various regulatory agencies that currently have authority. 
Doing so can result in a more efficient and effective process, 
with benefits to commercial industry and innovation.
    Second, this Subcommittee can call on the executive branch 
to articulate a comprehensive strategy for dealing with 
existing space debris, which may potentially include active 
removal.
    Third, this Subcommittee can work with the executive 
branch, and other Committees with jurisdiction, to re-examine 
the rules and responsibilities for space situation awareness 
and space traffic management.
    The key question facing this government moving forward is 
whether or not the Department of Defense should continue to be 
the single Federal agency responsible for all space situation 
awareness activities, and providing operational space traffic 
management for the world. I believe the answer is no. While 
space surveillance began as a national security function, it 
has evolved into more than just national security. It plays a 
fundamental role in the breadth of space activities being 
conducted by not only the military, but also civil government 
agencies, and the private sector.
    Thus, I believe it is time for the U.S. government to shift 
responsibility for part of the SSA mission that directly 
supports safety of space flight to a Federal entity other than 
the DoD. The shift will allow this new entity to focus on 
building relationships with commercial and foreign actors, take 
better advantage of private sector innovation, and establish 
trusted services with all space actors. The DoD would certainly 
retain responsibility for, and a focus on, the national 
security aspects.
    Making this challenge is not--making this change is not 
without considerable challenges. First and foremost is 
determining which Federal department or agency should be 
assigned this new role. One option is to assign it to an agency 
that already has existing authority for regulating and 
licensing private sector space activities. Another option to 
assign it to a Federal agency that already has significant 
expertise in space operations and space debris. A third option 
would be to assign it to a new Federal agency with both 
regulatory powers and operational responsibility. Which of 
these options is best depends upon the long term priorities and 
goals for the U.S. government, and the role it wants to play in 
global space activities.
    This proposed shift in responsibility, I believe, puts the 
U.S. government in a better position to harness the private 
sector innovation currently ongoing, and improve its own 
capabilities and security in orbit. It is very similar to the 
DoD's current approach for both satellite communications and 
space-based remote sensing. In both of these areas, the 
government focuses its efforts on exclusive niche capabilities 
the private sector cannot provide. The end result has been an 
increased capability for the military, lower cost to the 
taxpayer, and a booming commercial industry.
    It has become almost trite to point out that the space 
world has changed, but in the context of this hearing, it is 
worth making the point again. The continuing expansion and the 
number of space actors, the types of space activities, has 
created a complex space environment. Technological diffusion 
has commoditized space capabilities, fueled a surge of private 
sector innovation, and created the possibility for many new 
uses of space for benefits here on Earth. It is vitally 
important for the U.S. government to evolve its approach to 
stay abreast of this ongoing change and continue to maintain 
its leadership role in supporting the safety of space 
activities, and encouraging innovation.
    Thank you for your time, and I will be happy to answer any 
questions you may have.
    [The prepared statement of Mr. Weeden follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Brooks. Thank you, Mr. Weeden, and I thank the 
witnesses for their testimony. As an aside, it looks like we 
are going to have our second set of votes somewhere around 
11:30, roughly 40, 45 minutes from now. Hopefully we will be 
able to complete these proceedings before those House floor 
votes are called.
    Reminding Members that Committee rules limit questioning to 
five minutes, the Chair will, at this point, open the round of 
questions. The Chair recognizes himself for five minutes.
    As a part of my five minutes, and recognizing the 
prerogative that the Chair has, I would like to, at this point, 
recognize the Falcon Rocket Team from Huntsville, Alabama. If 
you would please stand? We have got Coach Bobby Murphy here 
with us, Members John Aslan, Jack Aslan, Victor Murphy, Dave 
Green, Matt Kellogg, and Jorge Estrada. The competition is 
tomorrow. They are representing the State of Alabama. And I 
want to encourage you all to do what you can to represent our 
community, inasmuch as we often boast that we are the 
birthplace of America's human space flight program. And thank 
you for being here for this hearing today. This challenge that 
we are facing today may be one that we need you all to solve 
tomorrow.
    With that having been said, let me proceed with my--well, 
with that having been said, let me proceed with my first 
question. Dr. Henry Hertzfeld of the George Washington 
University recently testified before the Committee that FAA 
should ``clearly be defined, and preferably limited to, those 
issues directly related to launching and re-entry.'' His 
comments appear to be somewhat inconsistent with the request 
that the FAA is making here today. Can each of you comment on 
Dr. Hertzfeld's statement concerning the FAA's potential role 
in this space debris matter? Go ahead, at your leisure. Whoever 
wants to poke the button first.
    Mr. Zamka. Mr. Chairman, it seems like I might be the 
liable first guy. The FAA's current authority ends at the end 
of launch. That is the last time an operator has contact with 
their launch vehicle. The FAAs current authority begins at the 
beginning of reentry. That is when the safety checks begin. So, 
that is our current authority. What we have experience with is 
talking to the operators, and dealing with orbital debris 
mitigation. We are also on-site as the operators are conducting 
their operations, as part of our inspection and enforcement 
function. So, we have existing experience and credibility with 
the launch operators.
    What I will refer you to in my testimony that is new, and 
that would be worth considering, are the new classes of 
vehicles that will operate on orbit. These are vehicles taking 
personnel, cargo, and servicing up to human space stations, and 
also servicing satellites.
    General Raymond. I would just add that, consistent with 
what my panelist partner just said, we work very closely with 
the FAA on the licensing of launch vehicles. In commercial 
space launches that we conduct off of our ranges, we have FAA 
representation there with us as we go. I would just add that we 
are--consistent with the national space policy, we think it is 
important that you look at--that this hearing happened, and 
that you look at different agencies to be able to take on the 
lead Federal agency role. We are not going to pick one or the 
other, but I think it is important that you explore that, and 
we are interested in exploring that going forward.
    Mr. Nelson. Well, the FCC hasn't ruled in--on any of 
these--on this issue. It is probably important to point out FAA 
has had a role in the past, for instance, with air transport 
and human, and you know, human transport issues. And the fact 
that they are involved directly with a launch vehicle 
situation, carrying that through may be an appropriate 
situation, in regard to transport or, you know, further launch 
operations.
    Mr. Blount. I actually do not answer this question. My 
testimony is to who should have this authority. I think that 
there are ways that we can envision either a single agency, or 
fragmented agency authority, were we have different agencies 
handling different functions. However, I do think that General 
Raymond's point about having a lead Federal agency is very 
important. An agency that can coordinate this information, make 
sure that all the involved parties and stakeholders are 
coordinated, is very important. And I think that currently FAA 
looks like the most appropriate for that, but I don't think 
that it is necessary that it goes there.
    Mr. Weeden. I would add that one of the key questions here 
is what kinds of powers are we talking about, and would that 
extend to telling satellite operators what to do? I mean, that 
is a very complicated question, because a lot of these 
scenarios, when you are getting into potential close 
approaching space objects, we don't know a yes or no answer 
whether or not two things will collide, except in very, very 
specific cases, like, for example, a planned rendezvous between 
two satellites. In most other cases, it comes down to 
statistics and probability, and so you are having to make a 
judgment call based upon what is your level of risk. And I 
think the hesitancy by Dr. Hertzfeld is to give a government 
agency the power to somehow tell a private operator what that 
level of risk should be, and what they should do with it.
    Now, I think, on the other side, the situations where that 
would probably need to be exercised are not as numerous as many 
people might think. Most close approaches are between either 
two pieces of debris that no one controls, or a satellite under 
control and a piece of debris. The only situations where maybe 
that might come into play of mandatory control would be if, 
perhaps, human safety was in question.
    Chairman Brooks. Thank you. At this point, the Chair 
recognizes the Ranking Member, Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you to the 
witnesses. I want to follow up on this, because, Mr. Zamka, in 
your prepared statement, you are urging us to look at two 
issues. One is whether a regulatory agency should authorize 
transportation on orbit by license, and then the second is the 
benefit of an agency with enforcement authority providing 
notices regarding impending hazards and collisions.
    And I guess--I mean, from my standpoint, I am really not 
prepared to legislate yet, because I feel like there is still a 
lot we need to know. So I wonder if you might comment about 
what parties would need to be at a table, and in what venue, to 
begin to explore what Congress needs to do in this area, and 
might that be a better approach than going right to identifying 
an agency that would have authority--sweeping authority that we 
don't even know about yet?
    Mr. Zamka. Yes, ma'am. Thank you for the question. We 
really just want to begin the exploration as to what the 
solution might be. A very important part of that is having the 
right players at the table. So industry, who has to deal with 
the risk and the expense, for instance, of deciding to do a 
debris maneuver to avoid a collision, is certainly an important 
player. There are a lot of working solutions out there amongst 
commercial operators, and there are numerous ways of dealing 
with it, shy of regulation, shy of enforcement. We don't want 
to get ahead of any particular solutions that are out there. 
But, I would certainly say that industry, and the agencies that 
are involved with on-orbit authority now, would certainly be 
good players.
    Ms. Edwards. And before I go to Mr. Nelson, I will--General 
Raymond, I wonder if you could comment about the role that you 
would see at a future environment with a whole bunch of other 
actors at play, both domestically and internationally. What, 
then, is the role of the Department of Defense in this?
    General Raymond. Well, clearly, ma'am, the Department of 
Defense is focused on national security, and space situational 
awareness is absolutely foundational to everything that we do 
in space for a national security purpose. So, when you have 
these discussions, one of the things that I think we need to 
really be careful about as we go forward is making sure that we 
have the ability to do what we need to do to protect our 
nation, and protect our nation's satellites.
    Ms. Edwards. All right. And Mr. Nelson?
    Mr. Nelson. Yeah, I--following up on what I said earlier, 
and Mr. Zamka's comment, I would suggest, at least from the 
point of view of an orbital maneuver situation, or enforcing an 
orbital maneuver to take place, that, at least from the point 
of view of the folks that we work with, it is in their best 
interest to move, and that is how they would take a look at it. 
If they were aware that there was--a potential collision was 
coming along, I am sure that they would end up moving that 
satellite in order to take care of that. It is just inherently 
in their best interest, even from--especially from a financial 
point of view.
    So, from having to have somebody that would have to go 
through and actually force them, and say--to do that, it is 
probably an unlikely situation to carry through. And, further, 
as you point out, the international aspects of this, we only 
have a certain percentage of the satellites that are on orbit. 
And the issue of telling some other foreign country's satellite 
to have to move is--it raises its own issues.
    Ms. Edwards. Thank you. And, Professor Blount, I wonder if 
you could talk to me about the liability that the agencies 
either should have or do have who should be in charge of space 
traffic management, and what liability they should assume when 
it is a direction to a satellite operator to move a spacecraft, 
or its failure to provide a timely alert that results in a 
collision, or debris?
    Mr. Blount. It--can I clarify that question, that you are 
asking about the liability of the Federal agency to the space 
operator?
    Ms. Edwards. The liability of that the agency has or should 
have.
    Mr. Blount. I think that liability is a very interesting 
question, because these are, obviously, very expensive pieces 
of equipment that are moving at very fast speeds, and can cause 
a lot of damage. And there is--when you define a Federal agency 
that is going to be in charge, they take on a responsibility. 
And part of these points that I have--point out that we should 
have in the legislation is this idea of technological 
capability.
    And so, right now, that capability is vested with the DoD, 
and if we name a Federal agency, let us say the FAA or the FCC, 
then there becomes a question of where are they getting their 
data? Are they going to have to rely on DoD to get their data, 
and then are they going to do this collision analysis, or are 
they going to have to rely on DoD to do the collision analysis, 
or are they going to have to rely on SDA to do the collision 
analysis? And so, until the problems of where data comes from, 
and how it is going to be managed by that agency, come through, 
then it is going to be very difficult to determine who is going 
to be liable for these actions.
    I will just quickly add that, at the international level, 
the state is liable, and so the way that we manage our domestic 
assets is going to be very important, the way that we interact 
internationally, because we could be on the hook for something 
that a commercial actor does.
    Ms. Edwards. Well, and it does seem to me--and, Mr. 
Chairman, I will conclude. It does seem to me that there is a 
fair amount of risk that is inherent when you can't entirely be 
accurate if it comes to predicting how you move a satellite, or 
how you move a spacecraft. So, you know, these liability issues 
I think we are going to have to explore if we are going to go 
shoving responsibility to some other lead agency.
    And with that I yield. I mean, I think, Mr. Chairman, we 
have a lot more questions to ask and answer before we come to a 
point where we need to legislate in this area. Thank you.
    Chairman Brooks. Thank you. The Chair now recognizes Mr. 
Bucshon of Indiana.
    Mr. Bucshon. Thank you, Mr. Chairman. I want to focus on 
what do we do with the debris that is already there? And, I 
mean, we are talking mostly about regulating--a regulatory 
climate right now, but I am interested in--anyone can answer 
this. What is happening with R&D about how to either capture or 
deflect the orbit of existing space debris? Because I think--it 
seems to me that 50 years from now, we may not even be able to 
fly in space if we keep going the way we are at all, because we 
won't be able to get out of the way of stuff flying around the 
Earth.
    So is there anything going on on? Obviously, when you 
capture this stuff, you have to be going at similar speeds, or 
else it is just going to destroy whatever you try to capture it 
with. Mr. Zamka, maybe you could start?
    Mr. Zamka. Yes, sir. It is a difficult problem because of 
the high speeds involved, and, essentially, you would have to 
rendezvous with that particular piece of debris in order to 
capture it, and then bring it down. As part of our Center of 
Excellence function--thanks very much for supporting that--we 
have six tasks in work to begin to characterize that debris, be 
able to better predict where it is going to be, and then 
identify potential efforts at remediation. There are some 
things that are out there that could increase the drag, or use 
a magnetic field to begin to bring those pieces down sooner, 
but it is a difficult problem.
    Probably the most important thing relative to today is that 
any plan to remediate debris on orbit is dependent on not 
creating more debris now. As we have seen, any single accident 
can create a tremendous amount of debris.
    Mr. Bucshon. Yeah, and--like you pointed out, deflecting 
the orbit, either magnetically or physically, is a possibility, 
I guess. And some of the--I mean, it seems like we could 
probably come up to solve the problem for the bigger stuff, but 
all the little stuff, you know, like the stuff that hit the 
space shuttle, it is going to be really, really hard to get 
that stuff out of the orbit, it seems like.
    Mr. Zamka. Yes, sir. One of the challenges we have is that 
human spaceflight, our telecommunications satellites, and a lot 
of our Earth observing satellites are all in the same low Earth 
orbit regime, which is where a lot of the debris is, so that is 
where we have to work.
    Mr. Bucshon. Yeah. Mr. Weeden, you had a comment?
    Mr. Weeden. Yes. There is quite a bit of work going on on 
this within the scientific and technical community, both on 
studying the problem, and on looking at some technology that is 
still in the early level, but is--early stages, but with the 
promising ones that might need to be adapted down the road. 
NASA works with a number of other space agencies to do studies 
on this issue, and they have done a lot of modeling. One of the 
big questions the technical community is grappling with is, do 
we go after the big things, or the little things? Because it 
generally is different types of technology. You are not going 
to have one solution that does both. And we probably--and doing 
both means twice as much money, probably.
    And the difference is if the big debris is the source of 
new debris in the future. So, removing them, you are kind of 
controlling long term growth. But the small debris is the 
current threat to satellites, so removing that is a short term 
lowering of risk. And that is kind of a choice between which 
strategy is more important. And that debate is going on right 
now within the scientific community.
    Mr. Bucshon. Okay. As far as mitigation in the future, and 
this would apply probably only to U.S. players, because we 
can't control the international community, but is there any 
talk about penalizing financially people that generate space 
junk? Anyone want to talk about that? I mean, it seems to me, 
if you are a private entity, or you are--and you put something 
up into space, and it generates a bunch of problems----
    Mr. Weeden. Um-hum.
    Mr. Bucshon. --you know, who--what can we do about that? Is 
there a way to financially address that?
    Mr. Weeden. There have been discussions and proposals, 
mostly in academic journals in the past, of some sort of a tax 
or something on people that generate debris. The recurring 
problem is, who has authority to put that in place? As you 
mentioned, it is an international environment. There are more 
than 60 countries that are now launching satellites and space 
objects, and each of them has authority over their own private 
sector activities.
    Mr. Bucshon. Yeah, let me just point out, I mean, I am not 
promoting new taxation----
    Mr. Weeden. Yeah.
    Mr. Bucshon. --like if you fly something into space, you 
get taxed ahead of time. However, let me just point out that 
the reality is if there is not some incentive not to do 
something, I wouldn't call it a tax, I would call it penalty. 
If you do--say you send something up, it blows up, and 
generates 1,000 pieces of space junk, you know, if you send 
something up, nothing happens, it comes down, fine. But if, you 
know, there has to be some incentive for people not to generate 
this stuff.
    Mr. Weeden. I would say, there is an added complication 
that, in the areas where debris is the worst, mainly low Earth 
orbit, between about 600 to 800 kilometers, it is mostly 
government satellites. There is not a lot at the--at the 
moment, there is not a lot of private actor--private sector 
activity there.
    Mr. Bucshon. But there will be.
    Mr. Weeden. There will be in the future, but at the moment 
there is not a lot there. So the question is, how do you 
incentivize governments?
    Mr. Bucshon. Yeah. Good luck. I yield back.
    Chairman Brooks. Thank you, Mr. Bucshon. The Chair now 
recognizes Mr. Schweikert of Arizona.
    Mr. Schweikert. Thank you, Mr. Chairman. It is sometimes 
terrifying what makes us laugh, isn't it? It is--first 
question, and I just want to make sure I sort of understand 
some of the hierarchy and the mechanics. First off, a U.S., but 
private commercial satellite, DirecTV, or satellite television, 
or something of that nature, it is put up in space. Does it 
carry insurance? Mr. Nelson?
    Mr. Nelson. Yes. Most companies do have insurance on their 
satellites. Larger ones may actually self-insure, so they will 
put up money based on----
    Mr. Schweikert. But whether they, you know, put up the 
fund, or--but somehow there is an insurance product there?
    Mr. Nelson. Yes.
    Mr. Schweikert. How about if I am the French, or East 
Indian, or, you know, private telecommunication, or private 
cable, you know, or television provider? Do they carry 
insurance? Do they have, you know, a national indemnity? And 
considering they are often, you know----
    Mr. Nelson. It, you know, different countries have 
different rules concerning how they go about--as an example, 
what I am aware of is the United Kingdom. For any of the folks 
that might launch under their flag, they have a Space Act, and 
some of the requirements, for instance, is indemnification of 
the crown, so to speak. So they--it depends on the country, and 
what the rules are associated with their activity.
    Mr. Schweikert. And Mr. Chairman, and to our witnesses, 
where I am trying to head is, these are very expensive objects, 
both, you know, the--those from the private, and those that are 
governmental, have great, great value. We already know that 
there is sort of an insurance regime of some mix. It may not 
be, you know, universal in design. So we know we have 
incentives because of the value. We know there is some 
structure out there. So what happens today? How do they 
communicate today?
    General, let us say we have--you see something heading 
towards my DirecTV satellite. Do you communicate with them?
    General Raymond. Congressman, thanks for the question. 
Absolutely. We are very interested in maintaining a safe space 
domain. So the--my organization, and specifically the command 
center that I have, the Joint Space Operation Center, located 
at Vandenberg Air Force Base, tracks the 23,000 objects that 
you have heard about. And of those objects, we--not only do we 
track them, but we detect for potential conjunctions.
    Mr. Schweikert. But what I am after right now, because 
you--that was part of your testimony, and that was very 
helpful, is sort of the communication regime right now. So it 
is the satellite that is providing television for Australia----
    General Raymond. Right.
    Mr. Schweikert. --do you communicate with them?
    General Raymond. We do. So if--is--where I was going, if we 
detect a potential conjunction on any active satellite that is 
up in space, any country, if we detect a conjunction, we will 
make an emergency notification, because it is in all of our 
best interests not to have a----
    Mr. Schweikert. Now, does it go--is it bilateral? Does it 
come the other direction, where the private tracking firm that 
is managing, you know, do they communicate back to you?
    General Raymond. Yes, sir. We have two-way sharing 
agreements with 41 different companies. We have it with five 
different nations. There is two-way sharing going back and 
forth. Largely, though, the tracking capabilities that are out 
there are our tracking capabilities, and largely we are the 
ones that are doing this for the world.
    Mr. Schweikert. And do any of those private firms ever 
provide their statistics saying, hey, we actually believe you 
missed our orbit by a few yards, a few this, few degrees? We 
have some wobble, you know, we have some elliptical? What--I 
mean, do they share that sort of data back and forth?
    General Raymond. For those that we have agreements with, 
they provide owner--what we call owner-operator--the address in 
space, if you will. We track it with a radar. They have the 
exact address of theirs, and we--they do provide that back and 
forth. The challenge that we have today is that our command and 
control system that we have doesn't allow us to automatically 
ingest that. We are putting a new command system in place as we 
speak called the Joint Space Commission Operation Center System 
that will allow that automated--automatic ingestion of owner-
operator data.
    Mr. Schweikert. Okay. Mr. Chairman, as my buddy here--and 
we were talking sort of one-off a moment ago, as we see the 
commercialization of space, we know we have the incentives. We 
have very valuable objects up there. You know, we know we have 
the need. We know we have sort of a communication structure, 
and we also know it is ultimately going to be international. Is 
there a way where we could ever get these parties where they 
have sort of an automated information exchange back and forth, 
and others are also carrying the cost of this? So, thank you, 
Mr. Chairman, yield back.
    Chairman Brooks. Thank you, Mr. Schweikert. The Chair next 
recognizes Mr. Hall, the former Chair of the Science, Space, 
and Technology Committee.
    Mr. Hall. Mr. Chairman, I thank you. I, of course, thank 
you for holding this hearing. I guess, General Raymond, some 
time ago, maybe 15 years ago, we had a hearing on astronauts--
on asteroids, and, to our surprise, we found out one had just 
passed in what they said was 15 minutes of the United States. 
Nobody knew about it, and no one gave us any warning about it, 
or spoke about it. And I invited people from France, England, 
Japan, and others. Japan is the only one that answered, because 
it is a world problem, not just the U.S., but got very little 
hope from most of the--very few of them showed.
    We had some good hearings on that, and some things that 
would scare you to death. I guess give us some kind of a sense 
of the process that goes in when you want to protect our 
national security and our commercial assets could be threatened 
by orbital debris, and what other degree there is? Or how much 
warning did NASA have to avoid their threats that they have 
had? I don't think they have had one--been instances where they 
have. Just give us a general answer to my question. If it is 
too general, I will----
    General Raymond. Sir, we track, as we said, every object. 
We do that for NASA as well. We actually have NASA operators 
that sit on our JSPOC floor with us. We take very seriously the 
protection of the International Space Station. You heard from a 
previous panelist that the space station had moved 16 times. In 
fact, just last month, we recommended to NASA that they move it 
twice.
    There is a layered approach to doing this. We detect where 
the debris is, and then, as it gets into a certain area around 
the space station, we then put more energy on that debris, 
refine the orbital accuracy of that--of our position estimate 
of that debris, and then we make recommendations with the folks 
sitting on the floor. So it is something that we take very 
seriously, and there is a set process with NASA operators. We 
also do that for all of our DoD satellites. And, again, as I 
mentioned earlier, for any conjunction that we see is going to 
hit on an emergency basis, we notify the world.
    Mr. Hall. I know you must have processes for the government 
operators, to warn them about any possible collision, but what 
type do you--work do you have with the private operators? How 
do they know this, and how do you contact them? Or how do they 
contact you, or how do they watch you and listen for you?
    General Raymond. Sir, we have a tracking network of about 
21 different centers around the globe that track what I will 
call element sensor addresses in space of objects, debris, or 
satellites. We post that on a website, www.spacetrack.org. 
Anybody can get on there, and all of the addresses, or a large 
portion of the things that are in space, we put out there 
publically for everybody to have.
    Mr. Hall. Now, the private operator just is--operation--
government operators to know of your work?
    General Raymond. They have that data. For those that enter 
into agreements with us, we actually go beyond that, and we 
provide some services to them in addition to that data. And 
then, again, on an emergency basis, even for those that don't 
have----
    Mr. Hall. How many of them know that they need to have that 
agreement with you?
    General Raymond. They all know, and we have got 41 
different companies now that have it, and we have got five 
different nations that we have signed agreements with, and 
there are five or six more in the hopper right now going 
through the negotiations of that as we speak.
    Mr. Hall. I think your work is very, very important, and I 
thank you. I yield back, Mr. Chairman.
    Chairman Brooks. Thank you, Mr. Hall. The Chair next 
recognizes Mr. Rohrabacher of California.
    Mr. Rohrabacher. Thank you, Mr. Chairman. I apologize, I 
had another hearing, a markup from another Committee, and I 
will be reading your testimony. And I think this issue is 
vitally important for the future of not only the United States, 
but of all of humankind. The debris issue is not a secondary 
issue. Debris is something that will limit humankind's ability 
to use space for our benefit, and to uplift mankind, humankind. 
This is--and we are getting to a point of saturation now where 
either we deal with it, or we will suffer the consequences of 
this limited--and this limit on the benefits that we can 
utilize space for.
    One need only take a look at how we rely on space for 
weather, for communications, you name it. We have got--we have 
brought down the cost of telephone calls so dramatically with 
the use of space. We have agriculture that now depends on 
space, and GPS. We have whole economies based on space that are 
now in jeopardy because we are not cleaning up our trash. And 
we need to make sure that we are just not--track it. It is 
like--tracking trash in space is not the answer. What the 
answer is, eliminating the trash from space.
    And this shouldn't be just something the American taxpayer 
needs to bear the burden of. We need to make sure that we have 
an initiative. We should--hopefully this hearing will provide 
step number one towards creating an international initiative to 
clear space debris from orbital space. And I would imagine that 
our friends in the EU, and Russia, and perhaps--I can't speak 
for China, considering the fact that they have contributed so 
much to this problem as of late. But we should make this an 
international effort, and the steps should be made to get this 
thing moving. Otherwise, we are putting all of these wonderful 
assets that we have invested in, and that are currently helping 
improve the condition of humankind, we are putting them at 
risk.
    Let me note we--the Chairman, our Chairman of the full 
Committee, just mentioned that--we talked about near Earth 
objects, and--when he was Chairman, and I think that we 
probably have something where we are tracking them a little bit 
more than what we were then, but I don't think that we have 
done anything that--right now that we could count on to say, if 
we see a near Earth object that is going to hit the Earth and 
destroy large numbers of people, whether or not we have a 
system in place that we could then activate to deflect that 
near Earth object. I don't believe that system is in place.
    Well, we have got two major threats there, things we should 
be able to work on with our allies, and friends throughout the 
world, in order to achieve this as a human goal, a goal for all 
of humankind, as I say. So thank you very much for your 
testimony, I will be reading it. I am sorry that I missed the--
and I would be happy to yield to my colleague from Maryland. Is 
that--will you--did you want some time? I would be happy to 
yield.
    Chairman Brooks. Does the gentleman from California have 
any more questions?
    Mr. Rohrabacher. I am done.
    Chairman Brooks. All right. Thank you. The Chair, at this 
point, subject to the call for votes on the House floor, is 
going to entertain a second round of questions, and I am going 
to defer my second round at this point, and recognize the 
Ranking Member from Maryland, Ms. Edwards.
    Ms. Edwards. Thank you very much, Mr. Chairman. And the 
reason I wanted Mr. Rohrabacher to stay is because, in Mr. 
Weeden's testimony, he had a recommendation for the executive 
branch to clarify its strategy for assessing the orbital debris 
removal, and it really struck a chord because in our bipartisan 
Committee passed bill just a couple of weeks ago, we actually 
included a provision in there that would require NASA, in 
collaboration with other relevant Federal agencies, to review 
the concepts and technological options for removing orbital 
debris from low Earth orbit.
    So, I mean, getting to this question of not just looking at 
it and knowing where it is, all very important, but what's 
going to be our strategy for removing it? Because we actually 
need to free up some of that space too for all the additional 
activity that is going on. And so I wonder if any of you have 
any views, Mr. Weeden, starting with you, about what an 
effective approach NASA might take to address this particular 
provision, assuming that it does become law?
    Mr. Weeden. That is a very interesting--very challenging 
question, because, at the moment, there is no single technology 
that seems to be the answer. There are a couple of different 
technologies that have some promise. And so I think a first 
step would probably be to figure out what those technologies 
are, and then look for, how are we going to mature those 
technologies? Because, at the moment, they are--they exist. We 
generally know, theoretically, they are probably going to work, 
but most of them have not been demonstrated in an operational 
manner.
    So it will be identifying what the most promising 
technologies are, and then some sort of a strategy to mature 
them, do risk reduction, and--toward some sort of a 
demonstration mission on orbit of one or more of these 
technologies. And I think that is probably going to have to be 
an international demonstration--mission in nature, given the 
nature that all the debris is international, right? A county 
can only really touch the things that it owns, and so there is 
going to have to be some level of cooperation there.
    Ms. Edwards. Well, given that the United States mostly 
tracks all of it, it would--I would assume that we should be 
able to get some cooperation. General Raymond, is there a role 
that DoD can play in terms of maturing some of these 
technologies?
    General Raymond. Ma'am, there are a lot of discussions that 
are going on around the world on this problem, and it is an 
important issue. I think there are roles that we could help. I 
have not heard, to date, though, any specific technology that 
is out there that I see is something near term that us going to 
be able to solve this problem.
    Ms. Edwards. Mr. Nelson, I think you wanted to----
    Mr. Nelson. Yeah. I think Mr. Weeden touched on it. The 
technologies, and being able to take the items out of orbit, 
and getting them out of orbit, is very important. Obviously, 
the sooner you get it out, the likelihood is that they won't 
crash into something else.
    The point--the issue, though, it comes down to is whether 
or not you take out--and you are--made that mention as well, 
somebody else's piece of debris. The flags are flying on--even 
if it is not usable, that particular item is, you know, has the 
flag of another country. So there probably is going to have to 
be some sort of treaty work, or something along those lines, or 
agreements made between nations in order to be able to 
effectively work that out.
    Ms. Edwards. Right. Well, I know that Goddard Space Flight 
Center has some rather robust activity going on now to try to 
look at ways to re-service some of these decommissioned 
satellites as a way to get them back in service, not put, you 
know, new ones up, but that too is a long way down the line, 
but something that I think we need to invest in. And with that, 
Mr. Chairman, I will yield.
    Chairman Brooks. Thank you. Mr. Rohrabacher, we have time 
for another round of questions on your end, if you have any 
additional questions. The House floor vote has not yet been 
called.
    Mr. Rohrabacher. I would just like to suggest that we make 
this the first step, and not just a public relations--I mean, 
this is a problem, you know. We can do something in Congress to 
work with these folks, and to work with people internationally. 
I have--when I travel overseas, I am on the Foreign Affairs 
Committee, I always--when I go to another country, I go and 
talk to their space people. And every time I talk to the space 
people, whether it is Russia, or Japan, or Europe, they all are 
in tune with the--this is a challenge that we--that we are 
going to have to someday deal with, because it is coming to the 
point now where it is imperative to deal with it, because it is 
limiting what we can do in space.
    So, let me see, it was--I would just say--okay. Have any of 
you had any talk with, for example, the Russians, or the EU, or 
Japan on this issue?
    Mr. Zamka. Sir, the FAA is engaged with a lot of 
international partners, to include the European Space Agency, 
and we have letters of agreement with Spain and Curacao.
    Mr. Rohrabacher. Right.
    Mr. Zamka.Because it is such a big international problem, 
there is international will to attack it. One thing that we 
have an opportunity to do here is identify a civil agency that 
can represent the United States, which is the biggest operator 
out in orbit, to take a leadership role as we begin to address 
the problem.
    Mr. Rohrabacher. Well, is, you know, one--I remember one of 
the directors of the space program in Russia telling me that 
they had been thinking about some--almost a bulldozer type of 
thing, where you had a--some kind of a big shield in front of 
a--something that would go forward and get a hold of some of 
this debris. We actually--are we studying anything that would 
be--I mean, there is one idea. I mean, I am not saying that is 
good or bad. Are we really--have--you mentioned that we don't 
have any--or is there a program on that is actually trying to 
develop the technology in this?
    Mr. Weeden. At the moment I am only aware of one NASA 
funded program to do some technology development. It refers to 
what is known as an electro-dynamic tether, which is a 
spacecraft that can use the combination of electrical field and 
the Earth's magnetic field to maneuver without using fuel, 
aside from sunlight.
    Mr. Rohrabacher. Um-hum.
    Mr. Weeden. And it is--the technology is fairly early 
stages, but it could be one of the more efficient ways of 
moving around to gather debris. I am not aware of any other 
U.S. government funded programs to do the technology 
development. But I will say that, in reference to your question 
about international efforts, next month there is going to be a 
meeting hosted by CNES, the French Space Agency, that has 
participation from Japan, from NASA, from Russia, from a number 
of other countries, to--it is a 3 day workshop, looking at 
technology, and engineering solutions for his.
    Mr. Rohrabacher. Really?
    Mr. Weeden. And this----
    Mr. Rohrabacher. Where will that be?
    Mr. Weeden. That will be in Paris. This is--and they have 
held this workshop every two years. This is the third instance 
of it.
    Mr. Rohrabacher. And what days are they?
    Mr. Weeden. It will be June 16, 17, 18, around there.
    Mr. Rohrabacher. Okay. Mr. Chairman, I would suggest that 
someone from this Committee go to that hearing--or that 
meeting.
    Chairman Brooks. Is that a request?
    Ms. Edwards. Mr. Chairman, he may have to compete with the 
Chairman and the Ranking Member.
    Chairman Brooks. Does the gentleman from California have 
any more questions? All right. Let me exercise my prerogative 
and now ask my question.
    General Raymond, if an event like the Kosmos-Iridium 
collision happened today, how would JFCC respond? Specifically, 
can you give the Committee a sense of the process that goes 
into actions to protect our astronauts on the International 
Space Station, or other national security and commercial assets 
that could be threatened by such an event?
    General Raymond. Yes, sir, thank you for the question. If 
we--if an event happened where two satellites collided, 
obviously, it would generate debris. We would detect that 
debris with our network of sensors around the globe. We would 
characterize that debris. We would get an orbital element, or 
the address in space, if you will, of that debris, and we would 
refine that over time, and we would put that debris into our 
catalog.
    Once it is in the catalog, as I discussed earlier, we have 
the process in place that we do for every active satellite on 
orbit. We would screen against that debris to ensure that we 
provided proper warning, if something were to collide.
    Chairman Brooks. That is the vote call, but we still have 
15 minutes before we have to be on the House floor. Quick 
follow-up question, how long does it take, generally speaking, 
for the orbital debris to have its orbit decay to the point 
where it goes back to Earth, and it is no longer an issue?
    General Raymond. Mr. Chairman, there is a lot--there is 
lots of factors that go--that are involved in that.
    Chairman Brooks. Is there some kind of average number of 
years, or decades, or a range?
    General Raymond. Sir, I would--I don't have that at my 
fingertip, and I don't think there really is--it--there are so 
many factors that are involved. It is altitude, size, shape, 
speed, velocity. There are a whole bunch of things. We do 
predict re-entries, and we track those re-entries. We know--we 
track those, we warn against them, when they are going to re-
enter. But I can't tell you, you know, I can't give you a time 
for how many years. But when it gets close, we can characterize 
that re-entry, and we warn against that as well.
    Chairman Brooks. Mr. Nelson, you wanted to add something?
    Mr. Nelson. Yes. It is, you know, the General actually hit 
on the issues. It is basically the altitude, the shape of the 
object, the mass of the object, and it can range quite--there 
is a very, very large range, from, you know, tomorrow to, you 
know, maybe a million years from now. So--depending on where 
that particular object is. So that brings up the issue of 
basically taking it out of the orbit.
    Chairman Brooks. Mr. Weeden?
    Mr. Weeden. Just to give you some ballpark numbers, at the 
altitude of the International Space Station, I would say a 
rough estimate, on the order of months to maybe a very short 
number of years. When you move up higher, let us say around 800 
kilometers, where most of the remote sensing satellites are, 
and the greatest congestion of debris is, and the collision 
was, and the Chinese anti-satellite was, at that altitude, you 
are talking decades or longer. And once you get beyond 1,000 
kilometers, for all intents and purposes, it is up there pretty 
much, as far as we are concerned, forever.
    Chairman Brooks. All right. Thank you. General Raymond, as 
a follow up to my earlier question to you, FAA requested, in 
their written testimony, for the authority to require operators 
to move positions if a possible collision is detected. How 
would your process change, if at all, if that authority is 
granted to the FAA?
    General Raymond. Sir, the FAA would still rely on the data 
that we get from our sensors. We would be providing that data. 
Today we--again, we warn of those conjunctions. We do not have 
the authority to make some--make a satellite operator move. And 
I can for DoD satellites, but I can't make commercial 
satellites, because I don't have that authority, but they would 
take our data that we have and use that data in their new role.
    Chairman Brooks. Thank you. Any other follow up on that? 
Yes, Mr. Zamka?
    Mr. Zamka. Yes, sir. Regarding the request to have the 
ability to require an operator to move, that can be done in a 
number of ways. Earlier is better. Earlier interaction, 
perhaps, agreement with the operator as part of the licensing 
process as to what the criteria would be for which they would 
move. Probably best of all would be an industry based consensus 
on what is the agreeable time to effect a move because 
probabilities are involved, and a lot of expense for the 
operator, frankly.
    Chairman Brooks. All right. I thank the witnesses for their 
valuable testimony, and the Members for their questions. The 
Members of the Committee may have additional questions for you, 
and you--we will ask you to respond to those in writing. The 
record will remain open for two weeks for additional comments 
and written questions from the Members. The witnesses are 
excused, and this hearing is adjourned.
    [Whereupon, at 11:27 a.m., the Subcommittee was adjourned.]





                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 [all]

</pre></body></html>
